Case: 19-20822

Document: 00515469407

Page: 1

Date Filed: 06/29/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-20822
Summary Calendar

FILED
June 29, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JUAN GABRIEL ORTUNO-OLEA,
Defendant-Appellant
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CR-168-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM: *
Juan Gabriel Ortuno-Olea appeals his conviction for illegal reentry, in
violation of 8 U.S.C. § 1326. He entered a conditional guilty plea, reserving
the right to appeal the denial of his motion to dismiss the indictment. OrtunoOlea asserts that the indictment was invalid because the removal order was
void due to a defective notice to appear that failed to specify the date and time
for his removal hearing. He concedes that the issue is foreclosed by United

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

25

Appendix F

Case: 19-20822

Document: 00515469407

Page: 2

Date Filed: 06/29/2020

States v. Pedroza-Rocha, 933 F.3d 490 (5th Cir. 2019), cert. denied, 2020 WL
2515686 (2020)and Pierre-Paul v. Barr, 930 F.3d 684 (5th Cir. 2019), cert.
denied, 2020 WL 1978950 (U.S. Apr. 27, 2020) (No. 19-779), but he wishes to
preserve it for further review. The Government has filed a motion for summary
affirmance, agreeing that the issue is foreclosed under Pedroza-Rocha and
Pierre-Paul. Alternatively, the Government requests an extension of time to
file a brief.
In Pedroza-Rocha, we concluded that the notice to appear was not
rendered deficient because it did not specify a date or time for the removal
hearing, that any such alleged deficiency had not deprived the immigration
court of jurisdiction, and that the defendant could not collaterally attack his
underlying removal order without first exhausting his administrative
remedies. Pedroza-Rocha, 933 F.3d at 496-98. Because the Government’s
position “is clearly right as a matter of law so that there can be no substantial
question as to the outcome of the case,” Groendyke Transp., Inc. v. Davis,
406 F.2d 1158, 1162 (5th Cir. 1969), the Government’s motion for summary
affirmance is GRANTED, the Government’s alternative motion for an
extension of time to file a brief is DENIED, and the judgment is AFFIRMED.

26

